No. _______
In the Supreme Court of the United
_________________

States

STEVE CHABOT, et al.,
Appellants,
v.
OHIO A. PHILIP RANDOLPH INSTITUTE, et al.,
Appellees.
__________________
On Appeal from the United States District Court
for the Southern District of Ohio
__________________
JURISDICTIONAL STATEMENT
__________________
PATRICK T. LEWIS
BAKER & HOSTETLER LLP
127 Public Square
Suite 2000
Cleveland, OH 44114
ROBERT J. TUCKER
ERIKA DACKIN PROUTY
BAKER & HOSTETLER LLP
200 Civic Center Drive
Suite 1200
Columbus, OH 43215

EFREM M. BRADEN
Counsel of Record
KATHERINE L. MCKNIGHT
RICHARD B. RAILE
BAKER & HOSTETLER LLP
1050 Connecticut Ave., NW
Suite 1100
Washington, DC 20036
(202) 861-1504
mbraden@bakerlaw.com

Counsel for Appellants
July 19, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether the district court erred in entertaining this
partisan-gerrymandering claim, notwithstanding that
“partisan gerrymandering claims present political
questions beyond the reach of the federal courts.”
Rucho v. Common Cause, 139 S. Ct. 2484, 2506–07
(2019).

ii
PARTIES TO THE PROCEEDING
The following were parties in the court below:
Plaintiffs:
Ohio A. Philip Randolph Institute; LuAnn Boothe;
Douglas Burks; Aaron Dagres; Kathryn Deitsch; Linda
Goldenhar; Mark John Griffiths; Hamilton County
Young Democrats; Andrew Harris; Beth Hutton; Sarah
Inskeep; League of Women Voters of Ohio; Cynthia
Libster; Ria Megnin; Elizabeth Myer; Lawrence Nadler;
Northeast Ohio Young Black Democrats; The Ohio
State University College Democrats; Tristan Rader;
Constance Rubin; Teresa Thobaben; and Chitra
Walker.
Defendants:
Larry Householder (Speaker of the Ohio House of
Representatives); Larry Obhof (President of the Ohio
Senate); and Frank LaRose (Ohio Secretary of State).
Intervenor-Defendants:
Representatives Steve Chabot, Brad Wenstrup, Jim
Jordan, Bob Latta, Bill Johnson, Bob Gibbs, Warren
Davidson, Michael Turner, Dave Joyce, Steve Stivers,
and the Republican Party of Cuyahoga County, the
Franklin County Republican Party, and private
persons Robert F. Bodi, Charles Drake, Roy Palmer III,
and Nathan Aichele.

iii
LIST OF DIRECTLY RELATED PROCEEDINGS
1.

Chabot v. Ohio A. Philip Randolph Inst., No. 19__ (U.S.) (notice of appeal to this Court filed May
6, 2019).

2.

Chabot v. Ohio A. Philip Randolph Inst., No.
18A1166 (U.S.) (stay pending appeal granted
May 24, 2019).

3.

Chabot v. Ohio A. Philip Randolph Inst., No.
18A1288 (U.S.) (extension of time to file
jurisdictional statement granted June 11, 2019).

4.

Householder v. Ohio A. Philip Randolph Inst.,
No. 18A1165 (U.S.) (stay pending appeal granted
May 24, 2019).

5.

Householder v. Ohio A. Philip Randolph Inst.,
No. 18A1242 (U.S.) (extension of time to file
jurisdictional statement granted June 5, 2019).

6.

Householder v. Ohio A. Philip Randolph Inst.,
No. 19-70 (U.S.) (jurisdictional statement filed
July 10, 2019).

7.

Ohio A. Philip Randolph Inst. v. Obhof, No. 193551 (6th Cir.) (pending).

8.

Ohio A. Philip Randolph Inst. v. LaRose, No. 184258 (6th Cir.) (appeal dismissed January 18,
2019).

9.

In re Subpoena Served on E. Mark Braden, No.
18-mc-0095, No. 18-mc-0151 (D.D.C.) (granting
motion to transfer on Oct. 31, 2018).

iv
10.

In re Subpoenas Served on Edward Gillespie and
John Morgan, No. 18-mc-0105 (D.D.C.) (granting
motion to transfer on Oct. 31, 2018).

11.

In re Subpoenas Served on Republican National
Committee, National Republican Congressional
Committee, and Adam Kincaid, No. 18-mc-0140
(D.D.C.) (granting motion to transfer on Oct. 31,
2018).

v
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . . ii
LIST OF DIRECTLY RELATED
PROCEEDINGS. . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vii
JURISDICTIONAL STATEMENT . . . . . . . . . . . . . . 1
OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL PROVISIONS INVOLVED. . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
A. Ohio’s 2011 Congressional Redistricting . . . . 2
B. Procedural History . . . . . . . . . . . . . . . . . . . . . 6
REASONS FOR SUMMARILY REVERSING OR
NOTING PROBABLE JURISDICTION AND
REVERSING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
I. This Court’s Rucho Decision Forecloses
Plaintiffs’ Claims . . . . . . . . . . . . . . . . . . . . . . . . 12
II. Ohio’s Congressional Districting Plan Is Not an
“Egregious” Gerrymander—or a Gerrymander at
All . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

vi
APPENDIX
Appendix A Opinion and Order and Judgment in
the United States District Court for
the Southern District of Ohio, Western
Division, Ohio A. Philip Randolph
Institute v. Householder, No.
1:18-cv-357
(S.D. Ohio May 3, 2019),
ECF No. 262 . . . . . . . . . . . . . . . . . App. 1
Appendix B Notice of Appeal in the United States
District Court for the Southern
District of Ohio, Western Division,
Ohio A. Philip Randolph Institute v.
Householder, No. 1:18-cv-357
(S.D. Ohio May 6, 2019),
ECF No. 267 . . . . . . . . . . . . . . . App. 409
Appendix C U.S. Const. art. I . . . . . . . . . . . . App. 412
Appendix D U.S. Const. amend. I. . . . . . . . . App. 413
Appendix E U.S. Const. amend. XIV . . . . . . App. 414

vii
TABLE OF AUTHORITIES
CASES
Benisek v. Lamone,
138 S. Ct. 1942 (2018). . . . . . . . . . . . . . . . . . . . . 14
Davis v. Bandemer,
478 U.S. 109 (1986). . . . . . . . . . . . . . . . . . . . . . . . 7
Gill v. Whitford,
138 S. Ct. 1916 (2018). . . . . . . . . . . . . . . . . . . . 7, 8
Karcher v. Daggett,
462 U.S. 725 (1983). . . . . . . . . . . . . . . . . . . . . . . . 5
League of Women Voters of Michigan v. Benson,
373 F. Supp. 3d 867 (E.D. Mich. 2019) . . . . . . . . 8
Rucho v. Common Cause,
139 S. Ct. 2484 (2019). . . . . . . . . . . . . . . . . passim
Shapiro v. McManus,
203 F. Supp. 3d (D. Md. 2016) . . . . . . . . . . . . . . . 8
Vieth v. Jubelirer,
541 U.S. 267 (2004). . . . . . . . . . . . . . . . . . . . . . . . 8
Voinovich v. Quilter,
507 U.S. 146 (1993). . . . . . . . . . . . . . . . . . . . . . . 16
CONSTITUTION AND STATUTES
U.S. Const. art. I . . . . . . . . . . . . . . . . . . . . 2, 6, 11, 12
U.S. Const. amend. I . . . . . . . . . . . . . . . . . 2, 6, 11, 12
U.S. Const. amend. XIV . . . . . . . . . . . . . . . 2, 6, 11, 12
28 U.S.C. § 1253 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

viii
28 U.S.C. § 2284 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

1
JURISDICTIONAL STATEMENT
Last Term, in Rucho v. Common Cause, 139 S. Ct.
2484, 2506–07 (2019), this Court held that “partisan
gerrymandering claims present political questions
beyond the reach of the federal courts.” That principle
resolves this case. The decision below adjudicated the
same partisan-gerrymandering claims addressed in
Rucho, adopted the same test the district court adopted
in Rucho and under the same constitutional provisions,
and found liability on claims of the same genre rejected
by this Court in Rucho as non-justiciable. Just as this
Court in that case reversed and remanded with
instructions to dismiss, it should do the same here.
There is no breathing room between this case and
Rucho.
In fact, this case proves that Rucho was rightly
decided. The three-judge panel below applied the
Rucho district court’s test to reach the bewildering
conclusion that a redistricting plan that garnered the
votes of half of Ohio’s Democratic legislators
discriminated against the Democratic Party. Even if in
some “egregious” cases, partisan-gerrymandering
claims presented justiciable questions—a position this
Court has rejected—this case would not qualify as a
matter of law.
The Court should summarily reverse the decision
below or, alternatively, note probable jurisdiction and
reverse.

2
OPINION BELOW
The three-judge district court’s opinion is available
at 373 F. Supp. 3d 978 and reproduced at
J.S.App.1–406. Its judgment is reproduced at J.S.App.
407–08.
JURISDICTION
This appeal is from the district court’s permanent
injunction, issued on May 3, 2019, enjoining the State of
Ohio from conducting any elections using the State’s
congressional redistricting plan enacted in 2011.
Appellants filed their notice of appeal on May 6, 2019.
J.S.App.409. This Court granted an extension to file this
jurisdictional statement through July 19, 2019. Chabot
v. Ohio A. Philip Randolph Inst., No. 18A1288 (U.S.).
This Court has jurisdiction under 28 U.S.C. § 1253.
CONSTITUTIONAL PROVISIONS INVOLVED
This appeal involves the First and Fourteenth
Amendments and §§ 2 and 4 of Article I of the
Constitution, which are reproduced at J.S.App.
412–414.
STATEMENT OF THE CASE
A. Ohio’s 2011 Congressional Redistricting
In 2011, the Ohio legislature enacted a redistricting
plan to govern elections to Congress from the Buckeye
State. The principal challenge facing the legislature
was that, due to comparatively slow population growth,
Ohio was set to lose two congressional seats, taking its
delegation from 18 to 16 members. At the time of the
redistricting, members of the Republican Party

3
controlled majorities in both houses of the legislature
and the governor’s office.
After the 2010 election, Republican members held
13 Ohio congressional seats, and Democratic members
held 5. Plans were drafted to remove two Democraticfriendly congressional seats for a 13–3 partisan split,
thereby exacting the entire toll of the reapportionment
from the Democratic Party.
But that was not the approach taken. Then-Speaker
of the House John Boehner and State House Speaker
William Batchelder agreed that a bi-partisan approach
would be preferable. They sought a plan that would
remove one Republican and one Democratic incumbent,
for a 12–4 partisan incumbency split. That approach
would divvy the partisan toll of the reapportionment
evenly between the two major parties, resulting in a
pairing of two Republican and two Democratic
incumbents. A plan proposed by national Republican
Party employees in Washington to split Franklin
County four ways, for a 13–3 split, was not
implemented.
The final enacted plan was the result of multiple
rounds of negotiation between members of both parties
in the Ohio legislature. Although an initial
redistricting plan was enacted in the summer of 2011
with little Democratic support, the Ohio Constitution
subjects redistricting legislation to a referendum
process, and petitions were circulated to challenge the
first enacted plan, H.B. 319. That threat incentivized
a new round of negotiations and a second plan, H.B.
369.

4
The lead negotiator for the Democratic Party
testified that House Speaker William Batchelder was
“sincere and motivated” to obtain Democratic support
for the redistricting plan. Szollosi Dep. 63:18–25.
Republican legislators listened to the concerns of
Democratic legislators and implemented them. The
lead Democratic Party negotiator testified that at least
six districts were made more politically competitive as
a result. Szollosi Dep. 91:10–15.
The negotiations resulted in dozens of changes,
including in areas of Ohio that vote overwhelmingly
Republican. During these renewed negotiations,
Democratic proposals were heard and implemented,
impacting district lines. See, e.g., 5 Trial Tr. 182:11–19
(map-drawer testifying about adopting legislator’s
requests for the three districts in Mercer County), id.
182:20–25 (map-drawer testifying about proposal in
district 16), id. 183:6–24 (map-drawer testifying about
request to include NASA Glenn Research Center in
district 9 because of Representative Kaptur’s
involvement with the Armed Services Committee).
Democratic and Republican proposals alike were heard
and incorporated, Democratic and Republican
incumbents alike were protected, and the legislature’s
lead consultant testified that drawing “Republican
districts” was neither his directive nor his goal. Id.
158:7–18.
In addition to a bi-partisan incumbency-protection
goal, the legislature implemented goals of enhancing
racial equality in Ohio’s congressional delegation. One
goal was to preserve district 11 as a majority-minority
district, since a majority-minority district had existed

5
in northeast Ohio since 1969. The other was to create
a new minority-opportunity district (which became
district 3) wholly in Franklin County.
These goals were bi-partisan. Democratic draft
maps contained districts of 50% black voting-age
population or higher in northeast Ohio, and a
prominent Democratic staff member wrote in 2011 that
the Democratic Party supported a new “Franklin
County seat” that “maximizes minority voting
strength.” Int’s Ex. 87. These districting decisions, by
bringing minority voters into these districts, had the
incidental impact of concentrating the Democratic vote.
The districting decisions have not been challenged in
this case as violating the Voting Rights Act or the
Equal Protection Clause’s guarantee of state racial
neutrality.
Additionally, the legislature faced severe population
constraints not only because Ohio lost two seats, but
also because the State’s population had shifted
internally, resulting in severe malapportionment.
Northeast Ohio saw population loss, and central Ohio
saw gain. Given the border with Pennsylvania and
Lake Erie and the minority-protection goal in
district 11, the line-drawing in northeastern Ohio was
severely constrained by the requirement of perfectly
equal district population. See Karcher v. Daggett, 462
U.S. 725, 732, 736, 744 (1983) (invalidating a plan with
.7% total deviation). These constraints and others had
an overwhelming impact on the line drawing statewide,
sending waves of changes across the plan.
The bi-partisan negotiations were a success. On
December 14, 2011, the legislature passed H.B. 369,

6
and the next day the governor signed it into law. Half
of the Democratic legislators voted for the plan,
including a majority in the State house. H.B. 369 stood
unchallenged for seven years and governed elections in
2012, 2014, 2016, and 2018.
On May 8, 2018, Ohio voters passed a State
constitutional amendment providing for congressional
redistricting reform. Beginning in 2020, supermajority
support from each party’s legislative members will be
required for congressional redistricting legislation to
become law, or else a commission will redistrict
instead. Only if the commission also fails will the
legislature redistrict by a simple majority. And, even
then, a plan enacted under those circumstances will
govern for only four years.
B. Procedural History
On May 23, 2018, the Plaintiffs—two not-for-profit
organizations that were instrumental in sponsoring
Ohio’s redistricting reform amendment, several
organizations aligned with the Democratic Party, and
individual residents of each congressional
district—filed this case. They raised only “partisan
gerrymandering” claims against H.B. 369 under the
Equal Protection Clause, the First Amendment, and
Article I of the Constitution.
A three-judge panel (Timothy Black, Karen Nelson
Moore, Michael H. Watson, JJ.) was convened pursuant
to 28 U.S.C. § 2284. The Appellants, Republican
members of Congress, county political parties, and
voters, were allowed to intervene under Rule 24(b) as
defendants. After the district court denied the Ohio

7
Attorney General’s motion to dismiss, the case entered
discovery. The district court expedited proceedings to
ensure resolution in time to award relief to Plaintiffs
before the 2020 elections.
The trial commenced on March 4, 2019 and lasted
eight days. J.S.App.43. On May 3, 2019, the district
court issued a 301-page ruling finding the 2011 plan
unconstitutional and enjoining its use in further
elections. See J.S.App.1–408.
First, the court concluded that the individual
Plaintiffs have standing to challenge their respective
districts of residence for the simple reason that they
assert that all districts are cracked or packed and have
established residency in them. J.S.App.166–92. The
court also concluded that all Plaintiffs have standing
under an associational theory founded on the
concurring opinion of Justice Kagan in Gill v. Whitford,
138 S. Ct. 1916 (2018). J.S.App.194 (quoting Gill, 138
S. Ct. at 1939 (Kagan, J., concurring)). It found that
social-science metrics of partisan asymmetry measure
“‘the fortunes of political parties’” and therefore “suit”
an alleged associational injury. J.S.App.193 (quoting
Gill, 138 S. Ct. at 1933).
Second, the court held that Plaintiffs’ claims are
justiciable. It noted that “[t]he Supreme Court has held
that partisan gerrymandering claims are justiciable” in
Davis v. Bandemer, 478 U.S. 109, 125 (1986), which
“[t]he Supreme Court…has not overturned.”
J.S.App.199–200. It also concluded that, because oneperson, one-vote claims are justiciable, the
Constitution’s delegation of authority over
congressional elections cannot be deemed to weigh in

8
favor of non-justiciability. J.S.App.202–04. The court
found that the Article I delegation of supervisory
authority to Congress over time, place, and manner
election regulations is insufficient to cure its concerns
about partisan gerrymandering because “Members of
Congress…are part of the problem.” J.S.App.204. The
court therefore held that “[t]he courts are the logical
branch to turn to in the face of such legislative selfdealing….” J.S.App.205. The court found no problem in
identifying manageable standards for Plaintiffs’ claims
because “three-judge federal district court panels have
established justiciable standards.” J.S.App.210
(footnote omitted). The court again cited Whitford,
along with Rucho, League of Women Voters of Michigan
v. Benson, 373 F. Supp. 3d 867, 911–14 (E.D. Mich.
2019), and Shapiro v. McManus, 203 F. Supp. 3d 579,
596–97 (D. Md. 2016)) for this proposition. Id.
Third, the court announced that it would apply the
equal protection standard identified in the Rucho
district-court decision. J.S.App.235, 239. The first
prong of that test is an intent prong of “Shaw racialgerrymandering claims.” J.S.App.237, 236–42. The
court conceded that five Justices in Vieth v. Jubelirer,
541 U.S. 267 (2004), rejected this standard,
J.S.App.237, but applied it anyway because it viewed
the only alternative to be the lower substantial-factor
test applied in other racial-discrimination cases,
J.S.App.239 (“We note…that if Plaintiffs meet the
predominant-purpose standard, they necessarily satisfy
the motivating-factor standard as well.”). The second
element (also applied in Rucho district-court decision)
is an “effect” prong, which references “the effect of
diluting the votes of members of the disfavored party

9
by either packing or cracking voters into congressional
districts.” J.S.App.243. This could be established by
showing that “a map is extremely unresponsive or
noncompetitive.” J.S.App.245. Then, under the third
element, “the burden switches to Defendants to present
evidence that legitimate legislative grounds provide a
basis for the way in which each challenged district was
drawn.” J.S.App.245.
Fourth, the court purported to apply this standard
and to identify a constitutional violation. As to intent,
it found a “heavy use of partisan data,” J.S.App.248, a
“deep involvement of national Republican operatives,”
J.S.App.250, and statements indicating that “partisan
outcomes were the predominant concern of those
behind the map,” J.S.App.255. The court also relied on
various social-science metrics, such as partisan
symmetry and the efficiency gap, to conclude that the
plan is a partisan outlier. As to effect, the court found
that 12 Republican and 4 Democratic members had
consistently been re-elected, J.S.App.264, and that “an
array of social-science metrics demonstrates that the
2012 map’s significant partisan bias in favor of
Republicans in that the Republicans possess a major
advantage in the translation of votes to seats compared
to Democrats,” J.S.App.266. The court found that
“Democratic candidates would win half the seats with
55% of the [statewide] vote,” which it characterized as
“stark” “asymmetry.” J.S.App.375.
The court agreed that “Defendants tell an entirely
different tale of the redistricting process,” but it did not
address that tale until the third prong, after it had
shifted the burden to the defense. J.S.App.324. It

10
rejected the Appellants’ incumbency-protection
arguments, finding that the Ohio legislature’s goals
were “not incumbent protection as understood by
Supreme Court precedent,” J.S.App.327, and that the
Ohio legislature should have made different
incumbency-protection decisions, such as by making
the incumbents’ districts more competitive (and, thus,
making incumbents less likely to win) and preserving
more senior members of the delegation,
J.S.App.328–36. It rejected the Appellants’ argument
that Democratic input was obtained in the mapdrawing process, even though it “credit[ed] this
assertion” as a factual matter. J.S.App.337. The
Democratic input was not sufficient, in the court’s view,
to “meaningfully impact[] the central intent” behind
the redistricting plan. J.S.App.337. Because the input
did not change “the partisan balance of H.B. 369,” the
court deemed the effect of the negotiations “de
minimis,” J.S.App.337–38, even though the Democratic
assistant minority leader—who led the negotiations for
the Democratic Party—testified that he viewed the
negotiations as yielding meaningful concessions.
The court then rejected the Appellants’ assertions
that Voting Rights Act and minority-representation
goals impacted the plan’s partisan outcomes.
J.S.App.340–52. The court recognized that no Voting
Rights Act or racial-gerrymandering challenge was
lodged against any district in the 2011 plan.
J.S.App.341. But it held that, even in the absence of
such a challenge, “the State must still establish that it
had a basis in evidence for concluding that the VRA
required the sort of district that it drew” in northeast
Ohio. J.S.App.341. The court concluded that Ohio

11
lacked a strong basis in evidence to satisfy this strictscrutiny standard. J.S.App.342.
Fifth, with these findings made, the court concluded
that the Rucho test was satisfied, and Plaintiffs had
established their Equal Protection, First Amendment,
and Article I claims. The tests under each “essentially
mirror[]” each other, J.S.App.357, so the findings
translated across all claims. J.S.App.367 (finding that
Plaintiffs’ associational-rights claim “overlap[s] with
our discussion of the vote-dilution claim”);
J.S.App.367–90 (rehashing virtually identical findings
across claims).
The court enjoined Ohio from conducting further
elections under the 2011 plan. J.S.App.398. The court
set a deadline of June 14, 2019, for the Ohio legislature
to enact a new plan “consistent with this opinion.”
J.S.App.399. The court further provided that, if the
legislature is unsuccessful, it “may appoint a Special
Master” and ordered “the parties to confer” and file a
list of “acceptable candidates.” J.S.App.401.
On May 6, 2019, the Ohio Attorney General and the
Applicants filed separate notices of appeal.
J.S.App.409. On May 24, 2019, this Court stayed the
district court’s injunction pending appeal. Chabot v.
Ohio A. Philip Randolph Inst., No. 18A1166 (U.S.). On
June 11, 2019, Justice Sotomayor granted Appellants’
application to extend time to file this jurisdictional
statement to and including July 19, 2019. Chabot,
No. 18A1288.

12
REASONS FOR SUMMARILY REVERSING
OR NOTING PROBABLE JURISDICTION
AND REVERSING
I. This Court’s Rucho
Plaintiffs’ Claims

Decision Forecloses

This Court’s decision in Rucho leaves no stone of the
district court’s decision standing upon another. Rucho
holds that “partisan gerrymandering claims present
political questions beyond the reach of the federal
courts.” 139 S. Ct. at 2506–07. The district court here
adjudicated and ruled on partisan-gerrymandering
claims—and only partisan-gerrymandering claims.
The district court identified three constitutional
provisions as the basis of its ruling: the Equal
Protection Clause, the First Amendment, and the
Elections Clause and Section 2 of Article I. Those were
the same provisions at issue in Rucho. Moreover, the
district court expressly adopted the test the district
court adopted in Rucho. J.S.App.235. This Court’s
Rucho decision addressed and rejected that test as
supplying judicially manageable standards. Rucho, 139
S. Ct. at 2502–04.
The Court therefore should make quick work of this
appeal. The district court’s decision is squarely and
completely foreclosed by Rucho, and the only step left
to take is to vacate the district court’s injunction,
reverse its decision, and remand with instructions to
dismiss this case for want of jurisdiction. That is what
this Court did in Rucho, id. at 2508, and this case is no
different.

13
II. Ohio’s Congressional Districting Plan Is Not an
“Egregious” Gerrymander—or a Gerrymander
at All
This case proves that this Court’s Rucho decision
was rightly decided. The test the Rucho district court
adopted, and which was used in multiple district-court
decisions, did not, in any them, result in a finding that
a redistricting plan was not an unconstitutional
partisan gerrymander. The ability to make basic
distinctions is a prerequisite to a test’s being judicially
manageable, and the district court’s inability to
distinguish a bi-partisan incumbency-protection plan
like Ohio’s from more tilted plans proves that these
questions are not justiciable in nature.
It is common ground that, even if some partisangerrymandering claims were justiciable (they are not),
judicial intrusion would be appropriate “in only
egregious cases.” Rucho, 139 S. Ct. at 2516 (Kagan, J.,
dissenting). A case like this, where the plan passed
with meaningful bi-partisan support—including from
half the members of the minority party—does not
present an “egregious” gerrymander. The federal courts
cannot credibly claim to know better than Democratic
legislators what is in the Democratic Party’s interests.
Although the district court became fixated with
evidence that legislative leaders sought a 12–4 partisan
split, this was because they rejected a more
Republican-friendly 13–3 split—which witnesses from
both sides testified was considered as a
possibility—and ignored the evidence that the 12–4
split was simply the result of a bi-partisan decision to
eliminate one Democratic seat and one Republican seat

14
to address Ohio’s congressional delegation decreasing
from 18 to 16. A 12–4 split meant that two Republican
incumbents would be paired and a Republican-friendly
seat eliminated, which the legislature was not
politically (or legally) obligated to accomplish. In
concluding that this goal was impermissible, the
district court necessarily concluded that the Ohio
legislature was legally obligated to exact the entire toll
of the reapportionment from the Republican Party’s
incumbents. This proves that, in the zero-sum game of
redistricting, a legal obligation to help one party (here,
the Democratic Party) results in a legal obligation to
harm the other (here, the Republican Party). As the
Rucho majority rightly concluded, these are all
“political, not legal” questions. Rucho, 139 S. Ct. at
2500.
This is not a case like Benisek v. Lamone, 138 S. Ct.
1942 (2018) (decided alongside Rucho) where the
Maryland legislature dismantled a traditional
Republican district. Rucho, 139 S. Ct. at 2493. Quite
the opposite, the district court held that the Ohio
legislature was legally obligated to do just
that—dismantle traditional Republican districts to
provide some type of “fairness” to the Democratic
Party. Nor is this a case like Rucho, where the North
Carolina legislature admitted to one-sided partisan
goals. Id. at 2491. Here, the testimony from witnesses
on both sides was that compromise was sought and, to
a significant degree, obtained. The district court found
liability because it believed there was not enough
compromise or that the compromise was not favorable
enough to the Democratic Party—a quintessential

15
political judgment call that was approved by the
majority of Democrats in the Ohio house.
In fact, the district court ignored the entirety of the
State’s and the Appellants’ evidentiary presentation
until after it shifted the burden, finding the plan to be
presumptively unconstitutional based entirely on
Plaintiffs’ presentation. That presentation was deeply
flawed. Plaintiffs’ experts ran mapping simulations
that, instead of imitating the State’s redistricting
criteria, rewrote them wholesale—simply because
Plaintiffs’ experts disagreed with the criteria. But the
Court did not address these flaws with the burden on
Plaintiffs; it shifted the burden, requiring the State to
justify its own criteria, and concluded that it failed to
satisfy what amounted to strict scrutiny.
For example, there was extensive evidence that nonpartisan Voting Rights Act-compliance and minorityopportunity goals drove the line drawing in northeast
and central Ohio, and that these goals had a partisan
impact, given the correlation of racial and political
identities. Because Plaintiffs did not challenge these
decisions as improperly racial or as violative of the
Voting Rights Act, they should have been required to
show that these plainly non-partisan goals were
somehow improperly partisan. But the district court
addressed these questions after shifting the burden
and, worse, subjected the Appellants to a racialgerrymandering strict-scrutiny standard. It held that
“the State must…establish that it had a basis in
evidence for concluding that the VRA required the sort
of district that it drew.” J.S.App.341.

16
This approach was foreclosed in Voinovich v.
Quilter, 507 U.S. 146 (1993), which held that (absent a
showing of suspect racial intent) a State has discretion
in deciding whether to create a majority-minority (or
other minority-opportunity) district. The district court,
by contrast, required the State to prove that its
decisions in this respect were strictly required by the
Voting Rights Act.
In addressing these and a myriad of other goals, the
district court substituted its own ideas for State
discretionary choices. It failed to judge partisanship
against the “State’s own criteria.” Rucho, 139 S. Ct. at
2516 (Kagan, J., dissenting). The district court judged
the plan by criteria created by Plaintiffs’ experts. So
there is no support for the district court’s decision in
either Rucho opinion.
Nor does this case present an appropriate vehicle
for reconsidering Rucho’s core holding—which, as
noted, forecloses all Plaintiffs’ claims. The ink is barely
dry on Rucho, so it is hardly an appropriate time to
revisit it. This case is a far weaker candidate for being
unconstitutional than the plans rejected in Rucho
under some still yet to be identified standard. And this
is no occasion for assessing whether Rucho turns out to
be workable in practice, since Ohio’s plan stood
unchallenged for four elections, and, after 2020, Ohio’s
congressional redistricting plans will be the subject of
Ohio’s redistricting reform. Stare decisis therefore
controls.

17
CONCLUSION
The Court should summarily vacate the judgment
below and remand the case with instructions to dismiss
as non-justiciable. Alternatively, the Court should note
probable jurisdiction and reverse.
PATRICK T. LEWIS
BAKER & HOSTETLER LLP
127 Public Square
Suite 2000
Cleveland, OH 44114
ROBERT J. TUCKER
ERIKA DACKIN PROUTY
BAKER & HOSTETLER LLP
200 Civic Center Drive,
Suite 1200
Columbus, OH 43215

EFREM M. BRADEN
Counsel of Record
KATHERINE L. MCKNIGHT
RICHARD B. RAILE
BAKER & HOSTETLER LLP
1050 Connecticut Ave., NW
Suite 1100
Washington, DC 20036
(202) 861-1504
mbraden@bakerlaw.com

Counsel for Appellants

